  Department of Health and Human Services

          OFFICE OF
     INSPECTOR GENERAL




NATIONAL    MARROW        DONOR PROGRAM

     PROGRESS   IN MINORITY   RECRUITMENT
                        OFFICE OF INSPECTOR                 GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them, This statutory mission is carried out through a
nationwide program of audits, investigations, evaluations, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and managementproblems and recommends
legislative, regulatory, and operational approaches to correct them.




                OFFICE OF EVALUATION                   AND INSPECTIONS

The OIG’SOffice of Evaluation and Inspections (OEI) conducts short-term management and

program evaluations (called inspections)that focus on issues of concern to the Department, the

Congress, and the public. The inspection reports provide findings and recommendationson the

efficiency, vulnerability, and effectivenessof departmentalprograms.





OEI’SBoston Regional Office prepared this report under the direction of Mark R. Yessian, Ph.D.,

Regional Inspector General. Principal OEI staff included:


Boston Retion                                                  Headquarters

Russell W. Hereford, Ph.D., Project Leader                     Alan Levine, Program Specialist

Elizabeth Robboy, Program Analyst



To obtain a copy of this report, contact the Boston Regional Office by telephone at

(617) 565-1050 or by fax at (617) 565-3751.

  Department of Health and Human Services

          OFFICE OF

     INSPECTOR GENERAL





NATIONAL    MARROW               DONOR PROGRAM


     PROGRESS     IN MINORITY        RECRUITMENT




            #.-      -d’
                           9




              $
           $V                  JUNE GIBBS BROWN
           ~                   Inspector General
           s
           %
             ‘%d~~
              2
             %J
                                 DECEMBER 1996

                                 # 0EI-01-95-O0120
                 EXECUTIVE                             SUMMARY

PURPOSE

To assess the performance of the Natioml Marrow Donor Program in increasing the
representation of potential donors from racial and ethnic minority groups on the registry of
volunteer unrelated marrow donors.

BACKGROUND

Bone marrow transplantation is a treatment for blood borne diseases such as leukemia and
lymphoma. For a transplant to be successful, the patient’s and donor’s blood cell proteins,
referred to as human leukocyte antigens, must match as closely as possible. Because
different populations have quite different genetic traits, it is much more likely that a patient
will find a match from within his or her own racial group.

The National Marrow Donor Program (NMDP),is a nonprofit organization based in
Minneapolis, Minnesota, that finds matching donors for patients seeking a transplant. It
operates the congressionally authorized marrow donor registry under contract with the Health
Resources and Services Administration (HRSA). One major fimction of the registry is to
“increase the representation of individuals from racial and ethnic minority groups. ”

The NMDPaccredits local donor centers that recruit volunteers to join the registry. As of
October 1995, the registry contained almost 1.5 million donors from 97 domestic centers. It
also has accredited 11 recruitment groups to help recruit minority donors. This report is
based on mail surveys of 88 of the 97 domestic donor centers and all 11 recruitment groups;
statistical data maintained by NMDP;and site visits to 9 donors centers and 4 recruitment
groups across the country.

FINDINGS

The number and proportion of donors on the registry from racial and ethnic minority
groups has grown substantially. However, the proportion of black donors and Hispanic
donors still falls short of their representation in the U.S. population.

       In the two and one-half years between April 1993 and October 1995, the number of
       donors from racial and ethnic minority groups increased by 180 percent, from
       127,663 to 356,420. Minority donor representation on the registry grew from
       17 percent to 25 percent.

       The NMDPreached the goals specified in its contract with HRSAregarding minority
       recruitment for the year May 1994-April 1995, with the exception of Hispanic
       recruitment, where it fell short by about 20 percent (7,000 donors).




                                                   i
      As of October 1995, blacks comprised 9 percent ofdonors on the registry (vs. 12
      percent in the general population), and Hispanics comprised 8 percent of donors on
      the registry (vs. 9 percent in the general population).

      Even as donor centers’ recruitment of minorities has increased, the overall retention
      rate for these donors has remained about the same. However, retention rates among
      donors from racial and ethnic minority groups continue to lag behind those for whites.

Few donor centers have a proportion of minority donors that equals or exceeds the
proportion of minorities living in their service area. The NMDP,however, does not have
in place performance indicators to measure individual donor centers’ progress in
recruiting minorities.

       Seventy-four of the 97 donor centers had a smaller proportion of Hispanics on their
       lists than reside in their service areas. Sixty-five donor centers had a smaller
       proportion of black donors than reside in their service areas.

       The distribution of minority donors is concentrated in a few donor centers. Twelve
       donor centers accounted for more than 50 percent of all donors from minority groups.

Donor centers responding to our survey identified three major obstacles to recruitment
of minorities to the national registry:

       Lack of awareness of marrow donation among minorities
       Mistrust of marrow domtion among minority groups
       Language and/or cultural barriers

The NMDP has developed strategies to overcome these obstacles. Each of these
strategies, however, contains some vulnerabilities that may limit their effectiveness.

       Publications. Eighty-six of the 88 donor centers responding to our survey report that
       they are using materials prepared by NMDPto increase awareness and decrease
       mistrust about marrow donation among minorities. However, during our site visits,
       donor center and recruitment group staff raised concerns about these materials’
       sensitivity to local conditions and, in some cases, the accuracy of translation.

       Recruitment Groups. Thirty-nine of the 88 donor centers responding to our survey
       reported that they work with NMDP-accredited recruitment groups as one way of
       overcoming language and cultural barriers. Seventeen centers reported that they rely
       on these recruitment groups for more than half of their minority recruitment. Despite
       turning to recruitment groups to play a major role in recruiting minority donors,
       NMDP does not have in place performance indicators to measure their ongoing
       effectiveness.




                                               ii
RECOMMENDATIONS

Performance Indicators for Donor Centers. Inthe next contract, the Health Resources and
Services Administration should require that the National Marrow Donor Program develop
and implement performance indicators that measure the progress of individual donors centers
in recruiting donors from racial and ethnic minority groups. We urge that these indicators be
implemented within the first year of the new contract.

Performance Indicators for Recruitment Groups. In the next contract, the Health
Resources and Services Administration should require that the Natioml Marrow Donor
Program develop and implement performance indicators that measure the accomplishments of
recruitment groups. We urge that these indicators be implemented within the f~st year of
the new contract.

Contingency Plans. The HRSAshould identify steps to be taken should the NMDPcontinue to
fall short on the recruitment goals specified in its current contract, as occurred among
Hispanic donors in the first year.

Sharing Effective Practices. The NMDPshould draw on the expertise of those donor centers
and recruitment groups that have succeeded in recruiting minority donors as one way of
providing assistance to other donor centers.

COMMENTS ON THE DRAFT REPORT

The Health Resources and Services Administration (HRSA),the Assistant Secretary for Health
(ASH), and the National Marrow Donor Program (NMDP)commented on the draft report.

HRSA concurs with our recommendations regarding performance indicators, except that the
agency believes it is not possible to implement these indicators before signing the next
contract. We agree that more time might be needed. We changed our recommendations to
require the NMDP to develop and implement these indicators in the next contract. We
continue to believe that developing, implementing, and enforcing performance standards for
recruitment of donors from minority groups and for performance of recruitment groups are
important, and need to be accomplished as quickly as possible.

NMDP’S comments were similar to HRSA’S. In our view, all donor centers have a role to play
in improving the chances for minority patients awaiting transplant to find a donor. For this
reason, we recommend some type of linkage between recruitment goals and the minority
population in each donor center’s service area.

The Assistant Secretary for Health comments that the recommendations contained in this
report are important and should be implemented as quickly as possible. We have changed
the language in the report in several places as ASHrecommends.




                                               .. .
                                               111
                     TABLE                 OF          CONTENTS




EXECUTIVE SUMMARY


INTRODUCTION            . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .1


FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...4


  � increase    inrninoritydonors       . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...4


  � Minol-ity representationon       donorlists      . . . . . . . . . . . . . . . . . . . . . . . . . . ..’7


  � obstacles    torninority recruitment . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...9


  .Strategies    forrninority recruitment         . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11



RECOMMENDATIONS                 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13


COMMENTS ON THE DRAFI’ REPORT                            . . . . . . . . . . . . . . . . . . . . . . . . . 15


APPENDICES


A: Survey Results       . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..A-1


B: Methodology         . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..B-l


C: Textofcornments         onthedraft     report     . . . . . . . . . . . . . . . . . . . . . . . . . ..C-1


D: Endnotes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..D-l

                             INTRODUCTION

PURPOSE:

To assess the performance of the National Marrow Donor Program in increasing the
representation of potential donors from racial and ethnic minority groups on the registry of
volunteer unrelated marrow donors.

BACKGROUND:

Bone Marrow Transplantation

Bone marrow transplantation is a treatment for blood borne diseases such as leukemia and

lymphoma. About 16,000 people are diagnosed each year with leukemia and other fatal

blood diseases. 1 Many of these people could benefit from a bone marrow transplant, a

procedure in which the patient’s diseased bone marrow is destroyed and marrow from a

healthy donor is infused into the patient’s blood stream. Bone marrow produces platelets,

red blood cells, and white blood cells, the agents of the body’s immune system. For a bone

marrow transplant to be successful, the patient’s and donor’s antigens must match as closely

as possible. About 30 percent of the time the patient has a sibling with matching antigens.

In the other 70 percent of cases the patient must seek an unrelated donor.


Three pairs of blood cell proteins, known as the Human Leukocyte Antigen (HLA)-A,

-B and -DR, are important in determining whether a match will be successful. One antigen in

each pair is inherited from an individual’s mother, the other from the father. Because there

are numerous antigens at each HLA-A,-B, -DR locus, more than 600 million combinations are

theoretically possible.2


The National Marrow Donor Program

The National Marrow Donor Program (NMDP)is a non-profit organization based in
Minneapolis, Minnesota. The NMDPoperates the Congressionally authorized marrow donor
registry under contract with the Health Resources and Services Administration (HRSA). The
contract is funded at $40,471,000, from July 1994 through April 1997.

The registry’s major functions are to: (1) establish a system for finding marrow donors
suitably matched to unrelated recipients for bone marrow transplantation; (2) recruit potential
donors; and (3) increase the representation of individuals from racial and ethnic minority
groups in order to enable an individual in a minority group, to the extent practicable, to have
a comparable chance of finding a suitable unrelated donor as would an individual not in a
minority group. 3

The NMDP began operations in September 1987 as a non-profit organization funded through a
contract from Office of Naval Research. The NMDPwas created through a cooperative effort
of the American Association of Blood Banks, American Red Cross, and Council of


                                               1
Community Blood Centers. The NMDPbegan search operations with 10 transplant centers,
49 donor centers and 8,000 donors listed on the registry. As bone marrow transplantation
came to be seen as viable technique, the U.S. Navy recognized that it was inappropriate for
the military to maintain a civilian registry. In 1989, responsibility for the contract was
transferred to the National Heart, Lung, and Blood Institute in the National Institutes of
Health. Contract oversight for the NMDPwas again transferred in 1994 to HRSAin
recognition that NMDPwas a service delivery program, rather than a basic research initiative.

Donor Recruitment

Recruiting volunteer donors, particularly minority donors, is a major responsibility of the
registry. The NMDPaccredits local donor centers that recruit volunteers to join the registry.
As of October 1995, the registry contained almost 1.5 million donors in 97 domestic donor
centers, and an additional 450,000 donors from 6 foreign centers. Eighty-one of the
domestic centers are blood centers, either Red Cross-affiliated or part of community blood
centers; 13 centers are departments of hospitals, and 3 are free-standing centers. Six of the
domestic centers have more than 50,000 donors on their list; another 35 centers have
between 10,000 and 50,000 donors each. The remaining 56 centers have fewer than 10,000
donors.

The NMDP also has accredited 11 recruitment groups to help recruit donors. Because of their
ties to particular segments of the local community, recruitment groups theoretically are able
to recruit donors from those segments with more success than donor centers. Upon
recruiting a potential donor, the recruitment group must “turn over” the donors it has
recruited to the donor center with which it works. In the event that one of these donors is
needed for further testing leading to actual donation, the affiliated donor center is responsible
for all contact with the donor.

Issues in Mhority Recruitment

Even with a registry of 1.5 million donors, it remains difficult for minority patients to find
matching donors. This problem is particularly acute for African-Americans, due to the
increased number of HLA combinations occurring in this group. Consequently, the
legislation establishing the registry requires it to “increase the representation of individuals
from racial and ethnic minority groups . .. in order to enable an individual in a minority
group, to the extent practicable, to have a comparable chance of finding a suitable unrelated
donor as would an individual not in a minority group.”4 Of the 3,198 transplants that the
NMDP has facilitated since it began operations in September 1987, less than 10 percent were
for minority patients.

Previously, the Office of Inspector General examined racial disparities in access to domted
solid organs (The Distn”bution of Organs for Transplantation: Expectations and Practices,
OEI-01-89-00550, March 1991). In that report, we found that blacks on kidney waiting lists
wait almost twice as long as whites for a first transplant. There has been some improvement
in access to organs among minorities. In 1994, 39 percent of recipients of cadaveric kidneys
were minorities, versus 35 percent in 1988. The percentage of cadaveric kidney donors who


                                                 2
were minorities increased in that same time period from 16 percent to 22 percent.5

Bone marrow transplantation differs from solid organ transplantation in many important
respects. However, both procedures require compatibility in donor and recipient human
leukocyte antigens to improve chances for a successful match. Because the combimtion of
blood cell proteins tends to follow racial and ethnic lines, a patient has the best chance of
finding an appropriate donor from within his or her own racial group.

In a 1992 report, the General Accounting Office (GAO)found that the proportion of black and
Hispanic potential donors for marrow domtion still lagged considerably behind their
proportions in the U.S. population. The GAOrecommended that for the NMDPto achieve its
goal of a representative racial and ethnic distribution, the NMDPwould have to at least double
the proportion of blacks and Hispanics on the Registry.G

SCOPE AND METHODOLOGY:

This report addresses the 97 domestic donor centers. The report is one of four companion
reports addressing the National Marrow Donor Program. The other three reports are:
National Marrow Donor Program: Effectiveness in Retaining Donors (OEI-01-95-00121);
National Marrow Donor Program: Geographic Overlap Among Donor Centers (OEI-Ol-95-
00122); and National Marrow Donor Program: Financing Donor Centers (OEI-Ol-95-
00123).

This report is based on five primary data sources:

1) The NMDP’Sregistry statistics extending over a two and one-half year period, from April,
1993 through October, 1995.

2)	 A mail survey of the 97 domestic donor centers. We received 88 responses, a response
rate of 91 percent.

3) 1990 U.S. Census Data at a county level.

4)	 The NMDP’SDonor Center Access Directory, in which each donor center displays a map
of the geographic area that it covers.

5) Site visits to donor centers and recruitment groups in California, Massachusetts,
Minnesota, New Jersey, North Carolim, and South Carolim.

Appendix B provides a more detailed description of our methodology.

We conducted this study in accordance with the Quwlity Standards for Inspections issued by
the President’s Council on Integrity and Efficiency.




                                                3

                                        FINDINGS

THE NUMBERANDPROPORTIONOF DONORSON THE REGISTRYFROMRACIALANDETHNIC
                           ANTIALLY. HOWEVER,THE PROPORTIONOF BLACK
MmORITY GROUPSHASGROWNSUBST

DONORSANDHISPANICDONORSSTILL FALLSSHORTOF THEIR REPRESENTATION

                                                             IN THE
U.S. POPULATION.

 �	   In the two and one-half years between April 1993 and October 1995, the number of
      donors from racial and ethnic minority groups increased by 180 percent, from
      127,663 to 356,420. Minority donor representatz”onon the regt”strygrew from
      17 percent to 25 percent.

The NMDP tracks five broad racial and ethnic categories of donors: White, black, Hispanic,
Asian/Pacific Islander, and American Indian/Alaska Native donors.7 The NMDPconsiders
the non-white donors to be minority donors. The total number of donors on the registry
grew by 91 percent, from 757,769 to 1,447,324, in the two and one-half years between April
1993 and October 1995. Minority donors accounted for about one-third of that increase.
The number of white donors increased by 77 percent, from 595,942 to 1,054,396.


                                                      Pig’m’el

                          InawseitlMiMityDculoIaon
                                                NhiDPRegiScy,
                                                          A@ 1993tooctober
                                                                        1995

                .41i=i-W
                  W Nuke
                                                                              � Apdl*.
                                                                              � cka!&rm


                     -“




                          B18ck-


                               0   2s,aoo   So,ooo   75,000      KKl,ooo
                                                                       1Z5,000lS0,000
                                                     Nuduof      Douc?s




In our site visits to donor centers and NMDPheadquarters, we heard of two overarching
reasons for the growth of minority donors on the registry. The first reason is a general
emphasis on the need for more minority donors in order to make bone marrow
transplantation available to patients from minority groups. One way in which the NMDP
promotes awareness is through national campaigns directed at specific minority groups. The
NMDPhas launched two such campaigns thus far, one targeted at black donors and the other


                                                       4
targeted at Asian/Pacific Islander donors. 8 The NMDPalso emphasizes the need for a
diverse registry through promotional literature and brochures aimed at the general public.

The second reason for the growth of minority donors on the registry is the financial
incentives built into the system. A grant from the Department of Navy pays for tissue typing
of minority donors. White donors who wish to volunteer for the registry must pay the cost
of tissue typing themselves, or through privately generated funding. These typically range
from $4S to $60 for the initial HLA-A and -B typing.

More recently, the NMDPhas begun paying donor centers a higher fee for recruiting minori~
donors than for white donors. The NMDPpays the 62 donor centers reimbursed on a fee-for-
service basis $28 for each new minority donor and $10 for each new white donor. The other
35 donor centers, which are funded on contract basis, have finds earmarked for minority
recruitment staff.

  .	   l%e NMDP reached the goals specified in its contract with HRSA regarding minority
       recruitment for the year May 1994-April 1995, with the exception of Hispanic
       recruitment, where it fell short by about 20 percent (7,000 donors).

The NMDP’S3-year contract with HRSAstipulates that 150,000 new donors must be recruited
annually. At least 30,000 of these new donors should be black, 18,800 should be Asian/
Pacific Islander, and 32,000 should be Hispanic. The contract does not specify an annual
recruitment goal for American Indian/Alaska Natives. Table 1 compares the level of NMDP
minority recruitment with HRSArecruitment goals. The table also presents data on
recruitment for the first half of this second contract year.


                                                Table 1
                             MINORITY GtMIS smtmxED       IN HRSA CONTRACT


                                                                                 Numberof donors
                        Numberof donors                        Difference        recruitedby NMDP
  Racial/EthnicGroup    recruitedby NMDP     Annualrecruitment betweenthe HRSA   betweenMay 1,
                        betweenMay 1,        levelspecifiedin  contractand the   1995and October
                        1994and April 30,    the HRSA contract actuallevelof     31, 1995
                        1995                                   recruitment

  Blacks                      38,275               30,000               8,275         20,183
  Asian.iPacific              22,492               18,800               3,692         14,194
  Islanders
  Hispanics                   25,147               32,000              (6,853)        17,183

  All Donors                  288,989             150,000              138,989        142,109
  Data Source: NMDP RegistryStatistics,April 1994throughOctober1995.
  Analvsis: Officeof InsuectorGeneral(OIG).




                                                   5

The absence of a natioml campaign targeted on Hispanic donors may provide one
explanation for NMDP’Slimited success in recruiting Hispanic donors as compared to their
success with donors from other minority groups. However, the NMDPreports that plans are
underway for a national campaign that targets Hispanic donors in four areas of the country.9

  .	   As of October 1995, blacks comprised 9 percent of donors on the re~”stry (vs.
       12 percent in the general population), and Hispanics comprised 8 percent of donors
       on the re~”stry (vs. 9 percent in the general populah”on). These propo~”ons
       represent substantial increases, from 5 percent for blacks and 6 percent for
       Hispanics in April 1993.

As figure 2 depicts, the proportion of Asian/Pacific Islanders and American IndiatiAlaska
Natives on the registry already exceeds their proportion in the population. Asian/Pacific
Islanders account for 6 percent of the donors on the registry (vs. 3 percent in the general
population); American Indian/Alaska Natives account for 2 percent (vs. 1 percent in the
population).


                                          Flgurc2
                                M@&~bm~PR@@V
                     15%
                     14%
                     13%
                                                                         1993
                     12%
                                                                         1995
                     11%
                     10%                                                1990
                      9%
                      8%
                      7%
                      6%
                      5%
                      4%
                      3%
                      2%
                      1%
                      o%
                            Blsck    -         w         ~-
                                                         Ahsb Native
                                               LshIMkz




For this amlysis we compared the percent of minority representation in the registry with
1990 U.S. population census data. This analysis is conservative for two reasons. First, the
number of blacks and Hispanics may be under represented in the 1990 U.S. census. 10
Second, because of the 5-year gap between the 1990 census and the 1995 NMDPstatistics,
minorities may account for an even higher proportion of the U.S. population today. As a
result, the disparity between the proportion of minorities on the registry vs. those in the U.S.
population may be even wider than reported here.




                                                    6

Even asdonor centers 'recmi~ent    ofminorities has increased, the overall retention rate
for these donors has remained about the same. However, retention rates among donors
from racial and ethnic minority groups continue to lag behind those for whites.

   F	   Retention ofmtiority donors at first level follow-up testing (DRtyping) improved to
        66 percent for the year ending September 1995, up from 55 percent for the year
        ending September 1993.

   F	   However, retention ofminori~donors    atsecond level follow-up testing (cTtestkg)
        declined to60percent for the year ending September 1995, down from 67 percent for
        theyear ending September 1993.

Donor retention rates measure the proportion of donors who proceed to followup testing,
when their names appear as potential matches. Inour companion report, National Marrow
Donor Program: Effectiveness in Retaining Donors (OEI-01-95-O012 1), we examine donor
retention in detail. 11 Among white donors, the retention rate at DR was 76 percent for the
year ending September 1995; the CT retention rate was 81 percent.

As we discuss in the companion       report, a likely important explamtion for the increase at DR
testing and decline at CT testing   is the recently initiated-practice of DR-typing virtually all
minority donors at registration.    As a result, the difficulties associated with contacting and
obtaining permission for donors     that previously were found at DR-typing are now arising at
CT.

The lower retention rate among minority donors has important implications for recruitment of
donors from these groups. The large number of HLAcombinations among some minority
groups makes it difficult for patients from these groups to find a matching donor; in itself,
this means that donors from these groups need to be over-represented on the registry to
provide an equitable chance of finding a match. Second, the lower retention rate means that
an even greater number of donors from these groups is needed in order to find a match who
is willing to proceed all the way to actual marrow collection and transplant.

FEW DONOR CENTERS HAVE A PROPORTIONOF MINORITYDONORSTHATEQUALSOR
EXCEEDSTHE PROPORTIONOF MINORITIESLIVINGIN THEIR SERVICEAREA.

   .•   As of October 1995, 74 of the 97 donor centers had a smaller propoti”on of
        Hispanics on their lists than reside in their service areas. Sixty-five donor centers
        had a smaller propoti”on of black donors than reside in their service areas.

We compared the service area of each donor center at the county level with county level
population data from the 1990 U.S. Census. 12 We then compared the percent of minori~
donors on each donor center’s list with the percent of minority donors residing in their
service area. Table 2 (following page) depicts the number of donor centers falling short of
or exceeding the proportion of minorities in their service area.




                                                  7

                                                Table 2
             DONOR CENTERS IN WHICH THE PROPORTION      OF MINORITIES   ON THEIR LISTS EXCEEDS
                 OR FALLS SHORT OF THEIR REPRESENTATION      IN THE LOCAL SERVICE AREAS




                                      Numberof donorcenterswith            Numberof donor centerswith
         Ethic and RacialGroup        listsfalling shoti of the            lists exceedingthe proportion
                                      proportionof minoritiesin their      of minoritiesin their service
                                      serviceareas                         areas
    Hispanic
                                        74                                  22
    Black
                                           65                                  31
    Asian/PacificIslander
                           38                                  58
    AmericanIndLm/AlaskaNative
                      31                                  65

    N=96 Donor Centers. ExcludesU.S. Navy’sBill YoungMarrowDonorCenterbecauseof that center’s
    uniquefocuson militarypersomel worldwide.

    Data Source: NMDP RegistryStatisticsfor October31, 1995;donorcenterserviceareasdefinedin
    NMDP’s “DonorCenter AccessDirectory”for October, 1995;and 1990U.S. CensusPopulationData.

    Analvsis:Officeof Inmector General(OIG).



We further amlyzed the donor centers’ lists to determine the extent to which centers fall
short on minori~ recruitment. Our analysis shows that 27 donor centers had lists which
reflected less than half the percentage of Hispanics in their service areas. Thirty donor
centers had lists which reflected less than half the percentage of blacks in their service areas.
Twelve donor centers had lists which reflected less than half of the percentage Asian/Pacific
Islanders in their service areas, and seven donor centers had lists which reflected less than
half of the American IndiadAlaska Natives in their service areas.

Our analysis revealed that 11 donor centers had lists which fell short of the proportion of
minorities in their service area for all 4 minority groups. Five centers had donor lists which
reflected or exceeded the proportion of all minority groups in their service area. We did not
fmd anything particular about either of these two groups. However, in our companion report
National Marrow Donor Program: Financing Donor Centers (OEI-01-95-O0123), we report
that contract centers are more likely than fee-for-service centers to have a proportion of
minorities that equals or exceeds the proportion of minorities that reside in their service
areas.

   .•   The distn”bution of minority donors is concentrated in a few donor centers. As of
        October 1995, 12 of the 97 donor centers account for more than 50 percent of all
        donors from minority groups.

These same 12 centers accounted for 42 percent of all donors on the registry. Eight of these
donor centers are large, with donor lists of over 20,000. The other four have smaller lists


                                                    8
but are in areas of the country with high numbers of minority populations.

Ouranalysis of these 12centers showed significant differences between these 12 centers and
other 76 centers responding to our survey in two areas: use of minority staff and use of
bilingual staff. According to self-reported survey data, all 12 of these centers employ
minority staff (vs. 45 of the other 76 donor centers). In 11 of the 12 centers, staff and
volunteers speak a second language (vs. 24 out of the other 76 donor centers).

  �	   Despite the attention being @“vento recruitment of donors from minority groups, the
       NMDP does not have in place performance indicators to measure individual donor
       centers’ progress in recruiting minorities.

The NMDP has developed nine Continuous Process Improvement (cPI) indicators in five areas
to measure the performance of its donor centers. The CPI indicators monitor how quickly
donor centers register new donors and how effective donor centers are at retaining donors.
Staff at the NMDPtold us that the indicators are designed to measure only those variables that
a donor center can control. Given the attention on minority recruitment, we find striking the
absence of a CPI indicator measuring any aspect of minority recruitment.

DONOR CENTERS RESPONDINGTO OUR SURVEY IDENTIFIEDTHREE MAJOROBSTACLESTO
RECRUITMENTOF MINORITIESTO THE NATIONALREGISTRY:

   �   Luck of awareness of marrow don~”on among minorities

In their survey responses, 98 percent of the donor centers and all 11 recruitment groups
called lack of awareness of marrow donation among minorities an obstacle. On our site
visits to donor centers and recruitment groups, staff told us that bone marrow donation tends
to receive less attention from the leadership in minority communities than in white
communities. One possible explanation for the lack of awareness among minorities may be
that they see little applicability to their lives, or to the lives of minority patients because
minority patients have received a smaller share of bone marrow transplants.

In addition, patients from minority groups are less likely to have success as they progress
through the process from initiating a preliminary search for a donor to actual transplantation.
Black patients, for example, initiated 8 percent of prelimimry searches, but received only 3
percent of transplants. Table 3 (following page) depicts the percentage of known ethnic and
racial groups who initiated preliminary searches and who received transplants from the
beginning of the NMDPprogram in December 1987 through October 1995.




                                                9
                                                    Table 3
            NUMBER
                 OF      SEARCHES AND TRANSPLANTS     FOR PATHINTS FROM ALL RACIAL AND ETHNIC
                            GROUPS FROM DECEMBER      1987THROUGH
                                                                OCTOBER
                                                                      1995

        Ethnicand Racial        Preliminary    Percentof              Numberof       Percentof
        Group                   Searches       Preliminary            Transplants    transplants*
                                               Searches*
        White                    18,265        83%                    3,259          91%
        Hispanic                 1,422          6%                      169          5%
        Black                    1,675          8%                      104          3%
        Asian/PacificIslander      654          3%                      49           1%
        American                   104         < 1%                      19          < 1’%
        Indian/AlaskaNative
        Other, unknown           3,139            *                     275            *

        Totals:                  25,259                               3,875

        * Searchesand transplantsfor patientswhoserace is unknownare excludedfrom thesepercentages,
        whichare calculatedon denominatorsof 22,120 for preliminarysearchesand 3,600 for transplants.

        Source: NMDP RegistryStatisticsfor October1995.

        Analysis: Officeof InspectorGeneral(OIG).

        Note: These data includesearchesand transplantsfor m donor centers,both foreignand domestic.




  .      Mistrust of marrow donatz”onamong minority groups

In their survey responses, 94 percent of the donor centers and 10 out of 11 recruitment
groups called mistrust of marrow donation among minority groups an obstacle. For
~xarnple, donor center and recruitment group staff told us during site visits that mistrust of
Western medicine can be a problem in Asian communities. Their resistance stems from a
fear of strangers, and in particular fear of doctors. Another issue donor centers confront is
distrust of the medical establishment. The donor centers we spoke with told us that they try
to reach out to minority groups; however, access to minority establishments (e. g., churches,
fraternal organizations, or cultural centers) can be a problem if donor center staff do not
have a personal link to a particular establishment.

  .      Language and/or cultural barriers

Eighty-six percent of donor centers and 10 out of 11 recruitment groups called language
and/or cultural barriers an obstacle. Specific examples of cultural and language barriers we
learned about during our site visits include:

   F	    The Vietnamese believe that spinal cord contains vital life fluids. If the fluid is
         removed, a person may become crippled or unable to bear children.



                                                       10

  �	   While 36 donor centers reported in the survey that they employ bilingual staff and
       volunteers, we were told that it is difficult to find people fluent enough in both
       languages to explain complex medical terms.

THE NMDPHAS DEVELOPED STRATEGIES TO OVERCOME   THESE OBSTACLES. EACH OF
THESE STRATEGIES, HOWEVER, CONTAINS SOME VULNERABILITIESTHAT MAY LIMIT
THEIR EFFECTIVENESS.

  �	   NMDP   Publications. Eighty-six of the 88 donor centers responding to our survey
       report that they are using materials prepared by NMDP to increase awareness and
       decrease mistrust about marrow donah”onamong minorities.

The NMDP has developed a variety of promotioml materials, including pamphlets,     posters
and videos. Most of these hems are customized for different ethnic and minorhy
communities.

In addition to the NMDPmaterials, 34 (39 percent) of the donor centers reported developing
their own educatioml materials specifically for minority donors. Thirty-six (41 percent) of
the donor centers reported using educational materials developed by other donor centers for
minority donors.

       �	     However, during our site visits, donor center and recruitment group staff
              raised concerns about these maten”als’ sensitivity to local conditions and, in
              some cases, the accuracy of translation.

The staff members we spoke with on our site visits pointed out that a recruitment strategy
changes with the target market. Subtle differences, such as whether the donor lives on the
east or west coast, can effect the donor center’s or recruitment group’s marketing strategy.
Staff told us that although they fmd NMDPmaterials useful, the generic materials are less
effective than ones that are tailored to local needs and concerns.

We also heard that materials origimting from NMDPheadquarters can be inaccurate. Staff at
one recruitment group pointed to a brochure in Vietmmese that had more than 20 mistakes.

  .•   Recruitment Groutm. Thirty-nine of the 88 donor centers responding to our survey
       reported that they work with N~DP-accredited recruitment groups as one way of
       overcoming language and cultural bam”ers. Seventeen centers reported that they
       rely on these recruitment groups for more than half of their minority recruitment.

The NMDPsponsors 11 recruitment groups to help recruit minority donors. 13 To date, these
11 recruitment groups have recruited 60,657 new donors, or slightly less than 4 percent of
the NMDPregistry. Of these 11 groups, 1 focuses on Hispanic donors; 3 on Asian/Pacific
Islander donors; 2 on black donors; the rest are general in their orientation.

The 39 donor centers that work with recruitment groups reported mixed experiences. Staff
at some donor centers responded with statements such as “recruitment groups effectively


                                               11
bridge the cultural gap. ” Staff at other donor centers told us that “we work better without
them” and that “it requires too much work to jointly handle a drive. ” Throughout our site
visits it became apparent that for donor centers with on-going relationships with recruitment
groups, the experience could be positive, resulting in increased access to minority
communities. However, it also became apparent that many donor center and recruitment
group staff were unclear on exactly how to work together. Typically contentious issues
include who should monitor drives and how should fees be split.

Importantly, the reimbursement system appears to have a significant effect on the extent to
which donor centers hold drives together. The 62 donor centers reimbursed by NMDPon a
fee-for-service basis receive a fried amount for each donor they recruit ($10 for each white,
$28 for each person from a racial or ethnic minoriw). Because these recruitment fees are the
fmncial base of any fee-for-service donor center, the incentive to be the sole sponsor of a
drive is very strong. Sharing recruitment fees has a direct, negative impact on any of these
donor centers’ bottom line.

       F	     Despite turning to recruitment groups to play a major role in recruiting
              minority donors, NMDP does not have in place pe~ormance indicators to
              measure their ongoing effectiveness.

The performance of NMDPdonor centers is assessed every month using CPI indicators.
Because no comparable indicators exist for recruitment groups, the NMDPhas no on-going
way to measure their activities. Just as donor centers must be measured on aspects they can
control, the recruitment groups feel that the same policy should hold if CPI-type indicators
are instituted.

Some donor center staff told us that the current system of performance measurement unfairly
penalizes donor centers that work with unreliable recruitment groups. Once the donor is
handed over to the donor center, that donor’s performance becomes part of the donor
center’s CPI indicators. One donor center we visited had a fairly large donor list, a fifth of
which came from a now-extinct recruitment group. When they f~st acquired donors from
that group their CPI indicators showed that as many as 70 percent of their donors failed to
come forward for followup testing.




                                               12

                      RECOMMENDATIONS

Since its inception in 1987, the National Marrow Donor Program (NMDP)has come a long
way in increasing the proportion of minority donors on the registry. Minority donors
accounted for about 6 percent of the registry in December 1989.14 Today, minority donors
represent 25 percent of the donors on the registry.

However, our fiidings from this report show that the NMDPneeds to continue and build upon
the progress made to date in recruiting--and retaining--donors from racial and ethnic minority
groups. We raise these concerns because the current racial and ethnic distribution of the
registry does not appear to meet the requirements of the Transplant Act: that a patient in a
minority group have a comparable chance of finding an unrelated donor as a patient who is
not in a minority group.

We developed our recommendations to encourage 1) further improvement in minority
recruitment and 2) the development of performance indicators for monitoring minority
recruitment. We believe that effectively carrying out our recommendations will require a
partnership approach between HRSAand NMDP,and between NMDPand its donor centers.
Consequently, we direct our recommendations to both HRSA,in its role as contractor for the
registry, and to NMDP,as the holder of that contract.

PERFORMANCE INDICATORS FOR DONOR CENTERS. In the next contract, the Health
Resources and Services Administration should require that the National Marrow Donor
Program develop and implement performance indicators that measure the progress of
individual donors centers in recruiting donors from racial and ethnic minority groups.
We urge that these performance indicators be implemented within the first year of the new
contract. Donor centers falling short on these indicators should be subject to disciplimry
actions, up to and including withdrawal of their participation agreement with the NMDP.

We offer the following options as indicative of approaches that might be considered. We
encourage HRSAand the contractor to develop additional ideas to implement our
recommendation of establishing minority recruitment goals as a way to improve access to
transplantation for members of racial and ethnic minority groups.

  .	   A reasomble beginning expectation would be that the proportion of minority donors
       on a center’s list must reflect, at a minimum, the proportion of minority donors
       residing in its service area.

  �	   The HRSA and NMDP could choose to be more aggressive and give additional impetus
       to minorhy recruhment by requiring that a donor center’s list must exceed by some
       factor the proportion of minority donors in the local service area.

  .	   An alternative approach would require that donor centers recruit some specified
       percentage of the minority populations living in their service area. Rather than peg
       that percentage to the donor center’s list, as our previous option does, this approach


                                              13
       would, in effect, set a target number of donors from minority groups. That target
       number would be based on the number of minority residents living in the center’s
       service area.

PERFORMANCE INDICATORS FOR RECRUITMENT GROUPS. In the next contract, the Health
Resources and Services Administration should require that the National Marrow Donor
Program develop and implement performance indicators that measure the
accomplishments of recruitment groups. We urge that these performance indicators be
implemented within the first year of the new contract. Recruitment groups falling short on

these indicators should be subject to disciplinary actions, up to and including withdrawal of

their participation agreement with the NMDP.


Just as the NMDPmeasures donor centers on aspects they can control, the recruitment groups

should also be measured on aspects of the recruitment process that they can control.

Possible performance indicators for recruitment groups include:


  �	   Tracking the percentage of donors recruited by each recruitment group that are
       retained at subsequent attempts to contact them in the donation process.

  �	   Measuring the time it takes each recruitment group to return consent forms to the
       appropriate donor center.

  .	   Monitoring the number of forms that are properly filled out by each recruitment
       group.

CONTINGENCY PLANS. The HRSA should identify steps to be taken should the NMDP
continue to fall short on the recruitment goals specified in its current contract, as
occurred in the first year among Hispanics. We urge the NMDP to continue with its plans
for a campaign focused on Hispanic donors. If performance indicators for recruhrnent
groups show that they are indeed an effective recruitment source, the HRSA and NMDP might
want to consider accrediting and/or funding more groups focusing solely on Hispanic donors.
We also encourage HRSA to consider speci&ing recruitment goals in the contract for
American Indians/Alaska Natives.

SHARINGEFFECTIVE PRACTICES. The NMDP should draw on the expertise of those donor
centers and recruitment groups that have shown success in minority recruitment as one
way of providing assistance to other donor centers in their minority recruitment efforts.
These donor centers and recruitment groups could assist the NMDP in planning and executing
national campaigns, in providing contacts to national minority organizations, and in creating,
editing, and pretesting foreign language educatioml materials. The NMDP could also draw on
their expertise in designing cultural competency training, improving bilingual capacity,
developing family education strategies, and mamging multiracial drives.




                                              14

  COMMENTS                       ON       THE         DRAFT              REPORT

We sought comments on the draft report from the Health Resources and Services
Administration (HRSA),the Assistant Secretary for Planning and Evaluation (ASPE),and the
Assistant Secretary for Health (ASH). In addition, HRSArequested comments on the report
from the National Marrow Donor Program (NMDP).

HRSA concurs with our recommendations, with the exception that the agency believes that it
is not possible to implement performance indicators before signing the next contract. HRSA
expects to issue the request for contract to operate the registry in December 1996, with a
contract award expected by April 30, 1997. Our goal in recommending the adoption of
performance indicators prior to awarding the next contract was to convey the urgency with
which this issue needs to be addressed. We strongly urge HRSA and the NMDP to move with
utmost speed to develop such indicators, as a way of increasing the chance for donors from
racial and ethnic minority groups to find matching donors.

Although these performance indicators will not be in place prior to awarding the contract, we
are pleased that the contract will require “specific information about the development and
implementation of the plan [for the development of performance indicators] with appropriate
due dates and disciplinary actions. . . The request for contract for the next contract period
will require that performance indicators and disciplinary actions be developed and that
agreements with” donor centers be modified to include the performance indicators and
disciplinary actions that will be taken if the center fails to meet the indicators. Accordingly,
we modify the language of the recommendation from our draft report to reflect HRSA’s
concerns. We add language in our recommendation urging that the indicators be
implemented within the first year of the new contract. We believe that such a time frame is
adequate to achieve these changes.

We add time lines because we are concerned that an open-ended time frame could result in
unnecessary delays. We wish to go on record as stating clearly that developing,
implementing, and enforcing performance standards for recruitment of donors from minority
groups are important, and need to be accomplished as quickly as possible.

We fully agree that individual donor center goals should be based upon the minority
population in the area served by the donor center. In our draft report, we listed three
options that were indicative of approaches that might be considered. We continue to list
those options in this final report, but we also add language encouraging HRSAand the
contractor to develop additional ideas to implement our recommendation to establish overall
minority recruitment goals as a way of improving access to transplantation for minority
patients. We have no objection to numerical performance indicators over percentages.

HRSA agrees that performance indicators for recruitment groups should be in place, but notes
that there is not enough time to develop these prior to awarding the next contract. We
therefore are changing our recommendation to reflect HRSA’Sconcerns. We add language in
our recommendation urging that the indicators be implemented within the first year of the


                                               15
new contract.

HRSA agrees with our other two recommendations--to     develop contingency   plans for cases in
which recruitment falls short of goals, and to share effective practices.

NMDP’S comments were similar to HRSA’s. We do, however, wish to address one point in
particular, NMDP’S comments on goals for recruitment of donors from minority groups. We
agree that recruitment of minorities should be a significant segment in evaluating the
effectiveness of a donor center. We do not, however, agree with the NMDP’S caveat that this
should only be a criteria in an area where “it makes sense to recruit a given minority. ” In
our view, all donor centers have a role to play in improving the chances for minority patients
awaiting transplant to fmd a donor. For this reason, we continue to recommend some type
of linkage between recruitment goals and the minority population in each donor center’s
service area.

The Assistant Secretary for Health comments that the recommendations contained in this
report are important and should be implemented as quickly as possible. ASHalso comments
that cultural competency training and bilingual capability be included in the HRSAcontract,
and that educational materials be pretested with a sample of the target population prior to
their use. Although we do not include these items as separate recommendations, we do add
them as topics to be included in sharing effective practices.

ASH raises other points upon which we wish to comment. Determining why whites constitute
91 percent of transplants but only 83 percent of preliminary searches--and, conversely, why
members of minority groups constitute 18 percent of preliminary searches but only 9 percent
of transplants--was outside the scope of our study. lt is, of course, possible to hypothesize a
number of factors, including antigen matching and financial barriers, that may limit access to
transplants among members of minority groups. Even though, as ASH notes, Asian/Pacific
Islanders on the donor list represent a larger proportion of donors than in the general
population, they had received only one percent of the transplants through October 1995.
Fimlly, ASH questions why the HRSA contract does not include recruitment goals for
American Indian/Alaska Native populations, as it does for other members of minority
groups; we would have no objection to HRSA’Sadding goals for this group within the
forthcoming contract.

ASPE had no comments    on this report.




                                               16

                                          APPENDIX                                A


                      SELECTED FINDINGS FROM THE MAIL SURVEYS


From the donor center surveys:

 We would like your assessment of the relative importance of the following obstacles to minority recruitment
 in the area you serve.   Please   indicate   the degree   to which you believe   these to   be obstacles. If you feel that
 an obstacle not listed here is important, please write it in the space provided.




 Lack of awareness of marrow donation among minorities                                 1(l%)          16(18%) 70(80!%)

 Lack of good educational materials targeted toward minorities                        40(46%) 31(36%)              16(18%)

 Language and/or cultural barriers                                                    12(14%) 38(44%) 37(42%)

 Mistrust of marrow donation among minority groups                                     5 (6%)        24(27%) 58(67%)

 Lack of dedicated staff for minority recruitment                                     42(48%) 22(25%) 23(26%)

 Lack of volunteer support for minority recruitment                                   32(37%) 36(41%)              19(22%)

 Small minoriq    population in the service area                                      50(57%) 19(22%)              18(21%)
 lote: N =87 responses




  Donor center staff speak 2nd language                                                           35 (40%)         53 (60%)

  Donor center employs minority staff                                                            57 (65%)          31 (35%)

  Donor center works with recruitment groups                                                      49 (56%)         39 (44%)

  Donor center works with minority organizations or institutions                                  83 (94%)          5 (6%)

  Donor center sponsors drives targeted specifically at minority groups                           82 (93%)          6 (7%)

  Donor center uses educational materials designed by NMDP specifically for                       86 (98%)          2 (2%)
  minority donors

  Donor center has developed its own educational materials specifically for                       34 (39%)         54 (61%)
  minori~ donors

  Donor center uses educational materials developed by other donor centers for                    36 (41%)         52 (59%)
  minority donors

 [ote: N =88 responses




                                                               A-1

 Did your donor center work with any   NMDP accreditedrecruitment
                                                                groups
 betweenJulyl, 1994andJune30, 1995?                                                         39       49 (56%)
 (Ifyou answered `>es, ''please answer therest of thequestions onthispage; ~you          (44%)
 answered “no’’pleasegotothenextpage.)
                                                                                     I           I
 ?ote: N =88 responses




The following questions pertain to the 39 donor centers working with NMDP accredited
recruitment groups:




 We relied on them for well over half of our recruitment                          8 (20%)               .-

 We relied on them for about half of our recruitment                              9 (22%)             3 (9%)

 We rarely worked with them                                                   19 (51%)               11 (29%)

 We never worked with them                                                        3 (7%)             25 (63%)




 Donor availability at confirmatory            14 (37’%)      9 (22%)       1 (2%)               15 (39%)
 testing

 Actual donation/marrow   collection           8 (20%)        11 (27%)      1 (2%)               19 (51%)

Note: N=39   responses




                                                       A-2

From the recruitment group surveys:


 We would like your assessment of the relative importance of the following obstacles to minori~ recruitment in
 the area you serve. Please indicate the degree to which you believe these to be obstacles. If you feel that an
 obstacle not listed here is important, please write it in the space provided.




 Lack of awareness of marrow donation among minorities                             ..            .-            11

 Lack of good educational materials targeted toward minorities                     4             5             2
                                                                          .

II
 Language andlor cultural barriers
                                                                          !
                                                                                   1
                                                                                        I
                                                                                                 5
                                                                                                      1
                                                                                                               5


II
 Mistrust of marrow donation among minority groups
                                                                          !
                                                                                   1
                                                                                        I
                                                                                                 3
                                                                                                      I
                                                                                                               7


IILack of dedicated staff for minority recruitment
                                                                          !
                                                                                   5
                                                                                        I
                                                                                                 3
                                                                                                      1
                                                                                                               3


IILack of volunteer support for minori~     recruitment
                                                                          I
                                                                                   3

                                                                                   8
                                                                                        1
                                                                                                 5

                                                                                                 2
                                                                                                      1
                                                                                                               3

                                                                                                               1
  Small minority population in the service area
                                                                          I
 Note: N= 11 responses




  Recruitment group staff speak 2nd language                                                7             4

  Recruitment group employs minori~       staff                                             8             2

  Recruitment group works with recruitment groups                                           8             3

  Recruitment group works with minority organizations or institutions                       11            --

  Recruitment group sponsors drives targeted specifically at minority groups                11            --

  Recruitment group uses educational materials designed by NMDP specifically                11            --
  for minority donors

  Recruitment group has developed its own educational materials specifically for            7             3
  minori~ donors

  Recruitment group uses educational materials developed by other donor                     3             7
  centers for minority donors

  rote: N= 11 responses




                                                          A-3

                               APPENDIX                   B

                                     METHODOLOGY

Data Analysis

~equantiwtive   pofiiom ofthisrepoti are based ontiee sources: (l) Registry data
maintained by the NMDP;(2) NMDP’S“Donor Center Access Directory” for October, 1995;
and (3) 1990 U.S. Census data.

(1) We examined monthly summary statistics from the NMDP,from April 1993 through
October 1995. These reports contain a center-by-center breakdown of the number of donors
on the Registry by five racial and ethnic groups: Black, white, Hispanic, Asian/Pacific
Islander, and American Indian/Alaska Native. (2) We used the NMDP’S“Donor Center
Service Access Directory” to identify the service area of each donor center at the county
level. (3) We used county level population data from the 1990 U.S. Census to determine the
population distribution by racial and ethnic group of each donor center’s service area.

We used data bases constructed in Lotus 1-2-3 to compare the racial and ethnic distribution
of each center’s donor list as of October 1995 with the 1990 Census population distribution.

The number of donor centers on the NMDPRegistry is in a continual state of flux, with
centers merging and others being added. For comparative purposes, we used a denominator
of 97 donor centers. Where centers have merged we combined appropriate data files.
Where we analyzed geographic service areas, we omitted the Bill Young Marrow Donor
Center because it contains military donors throughout the world. In such cases, the base-line
denomimtor was reduced to 96.

Mail Surveys of Donor Centers and Recruitment Groups

In July 1995 we mailed a pre-tested survey to each of the 98 donor centers then in operation
and to all 11 recruitment groups. We received surveys from 88 of the donor centers and all
11 recruitment groups. Because one of the donor centers has since merged with another
center, we chose to omit the responses of that center from our analysis.

The donor center survey addressed four areas of donor center operations: donor center staff
and activities; donor recruitment; search and work-up activities; and financial information.
The recruitment group survey addressed recruitment group staffing and donor recruitment.
This report draws on material from the second and third sections of the donor center survey
and the recruitment group survey. A non-respondent analysis showed no difference among
those donor centers that participated and those that did not.

Site Visits to Donor Centers and Recruitment Groups

We conducted site visits with staff at nine donors centers and four recruitment groups. We


                                            B-1

chose a judgmental sample of donor centers and recruitment groups that were geographically
diverse; varied in size and composition of the donor lists; funded on both contract and fee
bases; and located in a variety of settings, including free-standing centers, blood banks and
hospitals. Using an open-ended questions we interviewed staff about barriers and strategies
to minority recruitment, performance indicators, and use of recruitment groups.




                                              B-2

                                   APPENDIX                        C



     TEXT OF CO MNIENTS ON THE DRAFT REPORT




Health Resources and Services Administration             . . . . . . . . . . . . . . . . . . . . . . . . . C-2

Assistant Secretary for Health . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..    C-8

National Marrow Donor Program..              . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. C-10




Note: The Health Resources and Services Administration and the National Marrow Donor
Program provide combined comments on four draft reports that examined the National
Marrow Donor Program. This appendix includes only those portions of their comments that
are relevant to the report entitled “Natioml Marrow Donor Program: Progress in Minority
Recruitment. ”




                                                   c-1
        ~ .,,.*,
                   G
    #




          J@
                                                                                                                Public Health Service
;                        DEPARTMENT OF HEALTH a HUti                         SERVICES

:

:

 ‘;\-
                                                                                                                HeelttI Resources and
                                                                 CCT    ~ 3     jgg;                             Sewices Administration
                                                                                                                Rockville MD 20857


                   TO:              Inspector        General,           DHHS

                    FROM :          Deputy      Adxuinistrator

                   SUBJECT :        Office     of Inspector   General   (OIG) Draft   Repo-rts,
                                    ~cNational    Marrow Donor Program      (NMDP) :
                                    1) Financing       Donor Centers  0EI-01-95-O0123
                                    2) Progress      in Mino,rityRecruitment OEI-01-95-00120
                                    3)•Geographic Overlap Among Donor Centers
                                       OEI-01-95-00122
                                    4) Effectiveness in Retaining Donors 0EI-01-95-00121S1                                                “.

                   Attached    is     HRSA’S      response         to        your      memorandum      requesting
                   comments on the four               subject          draft         reports.

                   we appreciate         the     OIG conducting                the      review,
                                                                      “Bone Marrow Program
                   Inspection.”          The     draft  reports               were
                                                                        to the NMDP for forwarded
                   comment.        Their comments have been incorporated into our

                   response.        HRSA and NMDP will be performing further analysis and€
                   examination regarding some                     issues, such as restructuring of donor€
                   centers, implementation of                     performance indicators, and€
                   specification of retention                     rates, before specific changes are€
                   made. HRSA plans  to utilize                        the     findings         and   recommendations

                   contained in these reports                     as an integral part of the development€
                   of the contract.€
                   Questions may be referred to AD irdre Wakfihon x35181.                                           ‘€




                   Attachment€




                                                                         c-2
 OIG Report:          Proqress in Minoritv               Recruitment        0EI-01-95-00120

 GENERAL COMMENTS
 The concerns        raised     in this     report     warrant    careful      Consideration.

 fiRSA agrees      that     the contractor         needs     to Continue     to expand

 recruitment       and retention          of donors      from racial      and ethnic

 minority     groups      because      the current       racial   and ethnic

 distribution        of the registry          does not appear         to provide      a member

 of a racial/ethnic            minority     an equal       chance   of finding      an

 unrelated     donor      as a patient       Who i.s not in a minority            group.


 OIG RECOMMENDATION:                          .

PERFORMANCE INDICATORS FOR DONOR CENTERS.                              The Health       Resources

and Services          Administration,          prior      to awarding        any future

contract        for   the registry~         should      require      that    the National

Marrow Donor Program               have in place          a performance         indicator       that

measures        the progress        of individual           donor    centers      in recruiting

donors      from each        of the four       racial       and ethnic       groups.      Donor

centers       falling      short    on this      indicator        should     be subject       to

disciplinary          actions,      up to and including              withdrawal       of their

participation           agreement      with    the NMDP.


HRSA RESPONSE
HRSA does concur         with      the recommendation            that      the   contractor        have
 in   place   a performance          indicator  that         measures
                                               the progress of
individual donor centers in recruiting donors from each of the
four racial and ethnic groups. However, HRSA does not concur
that a performance indicator should be required prior to awardinq
any future contract for the re~istrv. The current contract
expires April 30, 1997 and there is not sufficient time to
adequately develop performance indicators and implement plans for
disciplinary actions.

HRSA agrees that the contractor needs to develop and implement
performance indicators with respect to minority recruitment and
be held accountable for achieving the performance standards. The
OIG has provided some alternative approaches, implying that the
performance measures will need careful consideration. It is
doubtful that performance indicators and disciplinary actions can
be implemented with appropriate care Drier to awarding the next
HRSA contract.

Developing       performance       indicators        for the individual          donor
centers    and implementation            plans     could    not be completed         prior          to
the award      of the next       contract.         NMDP has contracts          and sub-
contracts      with    the donor      centers      and these      would    need to be
modified     to fully      implement       a plan.      The  target     date   for the
Request    for Proposal        is December,          1996   with    the  award    by April




                                                   c-3
       30, 1997.       These   dates     provide      insufficient                   time   for  the
       contractor      to develop       a performance          indicator                 and implementation
       plan     for individual       donor    centers      with     input              from the    donor
       centers.

       However,         HRSA concurs           that      having      a performance             indicator        for
       minority         recruitment          is a worthwhile              activity.            HRSA will        require
       a plan       for    the     development           of performance             indicators          and
       implementation              plans.        Specific        information           about      the     development
       and implementation                 of the       plan     with    appropriate            due dates        and
       disciplinary            actions       should        be included          in the       next     contract.
.--—   The request           for_contract            for    the    next     contract        period        will
       require        that     performance           indicators         and disciplinary                actions      be
       developed          and that        agreements”         with    donor       centers        be modified         to
       include        the    performance           indicators         and disciplinary                actions.

       Therefore,         HRSA suggests            the     following        modification:

               HRSA should           require       that   performance             indicators          and
               implementation             plans      with  appropriate              due dates         be included
               in the    next        contract.

       HRSA does       agree     that    the   contractor       needs   to Continue        to recruit
       and retain       donors       from racial        and ethnic     minority     groups     because
       the    current     demographic        distribution        of the    registry      does     not
       provide       a member      of a racial/ethnic          minority       an equal     chance     of
       finding       an unrelated        donor     as a patient       who is not      in a minority
       group.

       HRSA and the           contractor            should      evaluate       the    alternative
       approaches         and reach          consensus         with      donor     centers.          For example,
       the   contractor           could      require        that     a donor       center’s        list    must
       exceed      by some factor               the    proportion          of minority         donors       in the
       local     service        area.        An alternative              approach,        requiring        that     a
       donor     center       recruit         some specified             percentage         of the      minority
       populations          living        in the       service       area,      is a preferable            approach
       because       it allows          for     the    contractor          to target        a specified          number
       of donors         (or percentage)               from the populations                 in the      area     and
       would     allow      more      flexibility.

       By targeting            the     percentage        of the population            that     resides       in the
       service       area,       HRSA would         not be taking         into     account       large     family
       drives      that      force      down the        percentage      of minorities            in a file.
       The most        important          consideration           is imDrovinq        the    likelihood         for
       a minority          patient        to find       a donor     and i.ncreasinq          the    percentage
       of new donors             from minority           groups.       Percentages         are     not
       necessarily           relevant.

       Expressing    mi.nori.ty   recruitment       goals      as a percentage       of the
       population    may be subject         to misinterpretation.             A target    number
       of new donors      from  each     minority     group      for each donor center




                                                              c-4
 would be a more useful measure.
A modified recommendation would stress that overall minority
recruitment goals should aim at providing improved access for
minority patients. Individual donor center goals should be based
upon the minority population in that area.
OIG RECOMMENDATION:
PERFORMANCE INDICATORS FOR RECRUITMENT                GROUPS.                    HRSA, “prior to
awarding any future contract for the registry,                                 should require
that   NliDP have in place     performance       indicators                    that  measure
accomplishments     of recruitment       groups.

HRSA RESPONSE:

HRSA agrees       that     the    contractor       should      have      in    place      performance
indicators for recruitment groups~ but this recommendation         does
not allow time for the development or the implementation of these
performance indicators. Developing the indicators, disciplinary€
actions, and modifications of contractual agreements with€
recruitment groups will require more time than is available prior€
to the award of the contract. HRSA expects that the Request for€
Proposal for the next contract will require that agreements with€
recruitment groups be modified to develop or include     specific

performance       indicators,          implementation          plans,         and   di.sci.plinary

actions.


The alternatives          offered      a=    operational          and will     be considered
as performance         indicators       are developed.              The NMDP has made
initial     recommendations          to f=mploy forms           monitoring      and timeliness
of consent       forms    submission       as measures          of recruitment        group
performance        and would      improve     efficiency          in minority      recruitment.

HRSA recommends          the     following     modification:

       HRSA should        work with    the contractor               to   develop     performance
       indicators        and irnpl@rnentation    plans            for    recruitment       groups              .

OIG RECOMMENDATION:

CONTINGENCY PLANS.    HRSA should                 identify        steps    to       be taken          should
the NMDP continue  to fall   short                on the       recruitment           goals
specified in its current   contract,                    as   occurred         i.n   the   first        year
among Hispanics.


HRSA RESPONSE:

HRSA agrees with this recommendation.  HRSA expects that the next
RFP will include a requirement that the contra&or submit a
report at least annually on recruitment group activities with a




                                                 c-5
                                                     ,,


 determination             of   whether        recruitment           goals      for    minority        groups
 are   being met and whether any shortfall is permanent or
  temporary.    The report will include recruitment group specific
  information about goals and achievements and allocations of staff
 time for minority versus Caucasian recruitment.     The proposal
 will specify a corrective action plan for recruitment groups that
 are deficient on recruitment goals and will require   the

 contractor           (currently         NMDP) to          be responsible             for   developing          and

 ixnplementing           these      performance            goals.


 OIG RECOMMENDATION:


 SEARING EFFECTIVE PRACTICES.      The NMDP should    draw on the

 e=ertise  of those donor  Cenfers    and recruitment     groups that have

 sh&#n success in minority recruitment      as one way of p;oviding

 assistance to other donor centers      in their minority recruitment
 efforts.


 HRSA RESPONSE:
 HRSA supports the recommendation that the contractor should
 undertake demonstration projects aimed at increasing the
 retention rate among minority donors. We agree that the
 contractor should make better use of the expertise of donor
 centers and recruitment groups that have had success in
 recruiting donors.

HRSA agrees that recruitment of minorities should be a
significant factor in the evaluation of the effectiveness                                of a
donor      center,        particularly in areas      with     high    numbers      of
minorities.          HRSA agrees  that     Continuous         Process      Improvement
monitoring       should    be an important        part     of the evaluation           process.
HRSA agrees        that  the next    Request      for Proposal         will    require      a
plan     to identify     and conduct     projects        to demonstrate          the
effectiveness         of specific    innovative        strategies       for    improving
retention      and effectiveness.

NMDP has included workshops   at its  annual     Council meeting to
address retention of donors. The 1996 Council meeting included
two workshops on “Planning  for  a Long   Registry    Life: Donor
Retention”and              Several       activities         related      to special           initiatives
for    minority          groups,       including         recognition         of the       Asian/Pacific
Islander        and the        African         Americans        United     for     Life     campaigns,          the
minority        initiatives            (Hispanic,          African     American,          American
Indian/Alaskan              Native,        and Asian/Pacific             Islander)        .     These
workshops         featured         representatives              from   donor      centers         and
recruitment           groups       with      expertise        and success          in improving
recruitment           and retention              among minorities.

The contractor has four standing committees that address donor
center and recruitment group activities, particularly with




                                                          C-6

minorities -- Membership and Process Improvement, Minority
Affairs, Donor Recr’Jitmenct and Patient ‘ervices= These
cm.mittees include  representatives   from donur   centers,
recruitment groups,  and minority   populations.




                           C-7

                                                ,.



                DEPARTME~      OF HEALTH AND HUMAN         SERVICES                        Office   of the   Secretar


              AUG28 1=                                                              Assistant Secretary for Healt
                                                                           Office    of Public Health and Scianc

  TO:           Inspector
                       General                                                           Washington     O.C.   20201



 FROM:          Assistant     forHealth
                       Secretary

 SUBJECT:       OIG Drall     ontheNational Marrow Donor Program
                        Reports
                                           .


  Thankyou for the oppotity toreview     theoffice oftheInspector   General’s  DrafiReports on
 the National Marrow Donor Program. 1 am pleased that in general the reports show that much
 progress has been made. However, the reports aiso showed that there are additional areas where
 the Department mustfocus its attention. The recommendations contained in these reports are
 important and shouid be implemented as quickly as possible.

Attached are several areas which 1 beiieve should be addressed in the reports. Thank you for the
opportunity to review these important reports. If you have any questions on the concerns raised.
please call Mr. Matthew Mu.rguia of the Office of Minority Health at 301443-9923.



                                               /7/2jM_L-
                                               Phillip R. Lee, M.D.


Attachment




                                           C-8

                            OIG IXLWT REPORTS ON

                    THE NATIONAL MARROW DONOR PROGIGWI




 �    REPORT: Progress in Minority Recruitment

 .-   The useof the terms “Caucasian”    and“whites”  areinterchangeably   usedthroughout
 the
      report. OIG may consider    using the OMB Directive 15 classification fo$ describing the
      various racial/ethnic groups, which are “white, black, Asian/Pacific Islander, American
      Indian/Alaska Native, and Hispanic,”

 --   There should be some discussion as to why the HRSA contract does not speci~ annual
      recruitment goals for Native Americans (page 6).

--    There should be some discussion as to why whites constitute 83% of preliminary
      searches, but account for 9170 of transplants (Table 3, page 10).

--    The discussion of mistrust by Asians on page 10 is contradicted by the discussion on page
      5 which indicates that Asians are over represented in the donor pool.

--    On page 11, is cultural competency training, including bilingual capability, included in
      the HRSA contract? If not, this avenue should be explored as a means to find bilingual
      staff, especially those knowledgeable about medical terms.

--    On page 11, OIG should
                           consider
                                  a recommendation
                                                 whichwouldrequire
                                                                 a pre-test
                                                                         with

      a sampleofthetargetpopulation          materials
                                 ofeducational          totheir

                                                    prior     use.



�     REPORT: Effectiveness in Retaining Donors

--    The use of the terms “Caucasian” and “whites” are interchangeably used throughout the
      report. OIG may consider using the OMB Directive 15 classification for describing the
      various racial/ethnic groups, which are “white, black, Asian/Pacific Islander, American
      Indian/Alaska Native, and Hispanic.”

--    Figure  2, page 12, shows that 10-17 percent of donor centers indicate that language
      barrierspresent an obstacle to search and workup. However, this issue does not appearto
      be discussed, nor are any recommendations to addressthis area contained in the report.
      Given the large percentage of centers reportingthis as a problem, and the stated fact that
      it is more diflicult to maintain minority donors, an examination of this issue would be
      appropriate.




                                           c-9
             National     MiuTow
                                                  September

                                                          4, 1996

              Donor      ProgriIrn

     Notional Coomlinating Ccntm
         XH Brndwuy Sued N.E
                           SUitc
                              XXI
            Mjnnqrniis. MN 55413
                      612-G27-WX
                                            1
                                                 JtiIth Braslow
                   I-X(K)-526-7MOJ
                FAX: 61>627.5899                 Director, Division of Organ Transplantation
                                            /	   Health ResouRes and services AdministratioII
                  bad    ofmm                    Park bWIl Building
      Hcrtruz A. Perkinx, M.D.. (%UU             5600 Fishers Lmc - Room 729
        Jnrrdrun R bong, Vice C&r;~
                 Clam PsdilIa An&ews             Rochiile, MD 20857
                kichd   H Au.?L M.D.
               IAXWICC D. AIIs, J.U.
                   Jnuph “~.Bell M.D.            Dear Ms. Bradow:
              b Dupwu. JM.D., Mc.           I
                Rogcr W. t%nm, P?@.
            Ban S. !-id=. J.D.. Ph.D.            Thank you very much for providing the National Marrow Donor
           David B. Fmhnm*ycr. J.!).             Program@ (NMDP) with an opportunity to review the draft reports of the
              J. @l)fOll Gordon. J.D.
                JohnA. [{amen, M.n.              Office of Insp@or GeneraJ (OIG), Depa=eti     of H=M and Human
+-cdemk J, HarrtL M. S.F-E. M.B.A.               Scmices. The draft reports were sent to members of the MinoriW Affkirs,
  . MLBVM. Hrirtirz        M.D.. MS.
                   Ermt R. Jtif. M.f%
                                                 Membership and Process Improvement, Donor Rccmitment and Executive
              NnJICyA, Kcm- M.D.                 Committees as well as the NMDP’s Network EYaiuationAdvisoryPanel

                 susJrrkitrnwr. MD.
                                                 and seieeted members of the stat%
 Niclrtrk J. Neuhouscl. J.D..M.SM.
                  peteri- PYIRG
                             MN.
           CIUrkX A. (CAP) Pdicr                 The comments received have been collated and a synthesis of the
       r-    PccIuwrI, M,(3.. Ph.D.
     L[. Gcn. Frank Li. f%crw.   k.              responses is presented below. The intent of the NMDP is not to criticize
             Kobcrt K. Ross M.D.                 the draft reports, but rather to add information from a variety of
            &fw,ud P. Scon. M-l).
           David F. Strontxk M.D.
                                                 respondents, all of whom have been involved with aspects of donor center
          J&n S. Thompson. Mm.                   operations ador donor recruitmem. & you know the NMDP is well
           wm     H. Wdlns. M.D.
            StemI N. WOIIT.M.D.
                                                 along in its awn analysis of donor center fimctiom, the findings of which
Amruneue K Yanct.y.M. O.. M.RH.                  should provide further usefid rmxnrnendations.
        Admiml E-R. ZUmW~L      Jr-
    Gaig W. S. l-irwG M.(3.. Ph.D.
                                                 Following thesummaryof comments on each draft report we have
          C4iqf Ezmwlivc Ofi(:ef                 provided our own list of rccomrncndations for modification of the OIG
                                                 document.
                  ~mim   F.nwitEw
         Rntrcrxc. OruvcS.D.V.M.
        Atktiid E. R. Zumwak. Jr.                MinorIv Recnxiuncnt
            ~0~    @mc16 Awnrtt:    Severalissues  wereraised
 about this draft report. It was pointed out that expressing
 The Hnmmtblc C. W. ‘.~il~ young   minority recruitment goals as a percentage of the population was subject to
             JohnA. Han.w M.D.
             (UIIC&ZbWiI12L MD.
                                   misinterpretation and that a target_         based upon previous experience, while stil
                                   subject to error,would be a more useful measure. An example of the problem in usi
      A cdldr-uw     efforr of the a Per~tage of ~ PoPfi~on @deli= is fo~d in the fact that the NMDP’s
          Amencait’t Association      ruitment of Ashn-Pacific   Islanders (A-PI)  aiready exceeds thepercentage   of this
                  ufnld -           acial groupinthegeneral    population  andyetthehlMDP doesnothaveenoughA-PI.
           Amcri-     Red Cr-      F
         Cnoncil of CotnmnW
                 Blood Cen@m

             With funding (rum:
  Hcshh R&numcs and Scmiccs
                                        I
              Adrnintfimtwn ad
    Navzl MI%IIcd Remmh nnd
        m_VViC1~CTtt   command          i
     to provide A-PI patien~ e~?l access to u=lated      hansplants. A similar comment
     emphasized that the NMI?P ISbetter able to identi~ donors for Hispanic patients than
     for AfricanAmerican patfents because Hispanics are more likely to match witi
     Caucasian donors. Thus r=mitment goais commensurate with providing more equal
     access for minority patients my be a better basis for this calculation.

     Several respondents made reference m the idea that not every donor center should
     necessarily                              minoritydonor rectuiter.
               be expectedtOk ~ eqtiy effective
                                 It was
     suggested that resources (and exp=mtions) be dispropcmionately higher in regions of
     large minority poptiatiom as a possible way to increase cost effectiveness.

 There was agreement witi tie@       report in considering minority remitment as a part
 of a center’s overall performance. There wa5 also feit m be a need to monitor the
 effectiveness of rectitmti   IYOUPSSinCSsome donor centers rely solely upon these
 groups to recruit minori~ donors.

 A rwuitment group mpmetitive         felt that the draft report proposals to employ forms
 monitoring and timeliness of consent forms submission as measures of recruitment
 group perforrnanw     were valid and would improve the NMDP’s efficiency in minority
 donor recruitment. -         W= also support for the recommendation to undertake
 demons-tion projects aimed at increasing the retention rate among minority donors.
 It was of interest that in the c% of this particular remitment group, work with their
 donor centers to improve retenhon was already in progress .

Another point of agreement with the H report was to repeat several of the analyses
in the face of the rapidly increasing recruitment of minority donors and to make better
use of “the expertise of those donor centers and recruitment groups that have succeeded
in recruiting minority donors. ”

In considering changes in thc methods of financial support for donor centers, a medical
director expressed a note of caution: Them is a real danger that certain successfid
models for minority -tment       efforts -d   be jeopardize by decreased funding.
It is again important to point out an NMDP initiative that is currendy in its early
stages, but promises to add strategic data and recommendations for minority
recmitrnent: The NMDP’s study of optimal registry size. Usingavailable information
about the likelihood of finding a successfid match for patients of all races and
reauitmetiretention    statistics and projections, a panel of biostatkticti  will provide
quantitative information about future recruitment requirements.

Recommended Modifications to the Draft Report:

�	        Minority recruitment goals should not be targeted to the percent in the
          population semxi. A-PI recruitment already exceeds the percent in the
          population, yetwe haveinsufficient   A-PI donors to give them an equal chance
          of finding a compatible donor. Large Caucasian family drives force down the
          percent of minorities in a fiIe. These are only a few of the arguments.
          Numerical targets are more meanin@].




                                     C-II

             �	      We agree th~ =~iw          of min~~ti~ s~uld ~ a Si@ifi=M segment in our -
                     evaluation of tie ~~veness     of a donor center, provld~ tie center is located
                     in m area where N makes smse torecruit    a givenminority.

             �	      continuous P-SS       ~pmv-nt      ~On-i~@     shouldbe ~ ~pomint partof thc
                     evaiuatioIx pr0@5s.

    we m tiy         cmb~ked    upon comimi:g     the effo~   be~   with these OIG draft reports.   Our
    OWn   detailedevaiuaaon of cap m recfult donors and remeve them for donation is well under
    way. The effects of geographicoverl~ = be~ e~~~~. @ our Network Evaluation
    Advisory Panel and by several committees. Minority mcmmnent approaches and donor
    retention are areas of high conurn, king adhs=d by ow MinoritY Affairs Committee, the
    Donor Recruitment Committee, and the Mmbtiip       and Process Improvement Committee.

    These are aIl high priority items for our Board of Directors, which til    be reviewing these
    documents at its regular meeting in several weeks.

    We hope that you fti these co-em,      heipfd. ~. NMQP thanks you for sharing these draft
    ~rts    and looks forward toa continuing cdlaborauon in Improving all aspects of donor
    center and recruitment gruup operations.


                                                                           &-A-dJ=
                                                                              /


                                                                                                .
                                                         Herbert A. Perkins, M.D.
                                                         NMDP Board Chair




.




                                           c-12
                                APPENDIX                  D




                                     ENDNOTES



      Living Gift of Life, a pamphlet by the National Marrow Donor Program.
1. Z7ze


2.Bone Marrow Transplants - A Book of Basics for Patients (reprinted by NYSERnet, Inc.
with permission from BMT newsletter), chapter 4, pp. 35-36.

3. 42 U. S. C.~k(b)(l)-(7)

  4.42 U.S.C. $274k(b)(l)-(7)

5. Table 2 (page 20) and Table 11 (page 38) in 1995 Annual Repon of the U.S. Scientijc
Registry for Transplant Recipients and the Organ Procurement and Transplantation Network,
Transplant Data: 1998-1994, United Network for Organ Sharing, Richmond, VA, and the
Division of Transplantation, Bureau of Health Resources Development, Health Resources and
Services Administration, U.S. Department of Health and Human Services, Rockville, MD.

6.	 U.S. General Accounting Office, Bone Marrow Transplants: National Program Has
Greatly Increased Pool of Potential Donors, GAOIHRD-93-11, November 1992, p. 11.

7.	 Persons of Hispanic origin may be of any race. The NMDP also categorizes donors as
Unknown, Decline, or Other. Donors categorized as “others” increased from 34,164 to
36,181. In determining the percentage of minorities on the list, we calculated minorities as a
percentage of the total number of donors on the registry. Because we could not ascertain the
race or ethnicity of donors listed as Unknown, Decline, or Other, we included them in the
denominator but did not assign them to any racial or ethnic group.

8. African Americans Uniting for Life was the first campaign to be launched. The
metropolitan areas selected for this campaign included: Atlanta, Baltimore, Chicago, Dallas,
Houston, Jacksonville, Kansas, Memphis, New Orleans, Tampa/St. Petersburg, and the
District of Columbia. Asian/Pacific Islander Donors Can Save Lives is the title of the NMDP
campaign focusing on Asian and Pacific Islander donors. The target markets for this
campaign included: Northern and Southern California, New York, Seattle, Hawaii, and
Chicago.

9.	 Target markets for this campaign include: Los Angeles/Orange County, California;
southern and eastern Texas; and Puerto Rico.




                                            D-1

10. New York City, Los Angeles, Chicago and other cities have alleged that the 1990 U.S.
Census undercounts minorities. The U.S. Government has acknowledged that it missed
about 1.6 percent of the nation’s population, including about 4.8 percent of blacks and 5.2
percent of Hispanics. In March 1996, the Supreme Court has decided that the 1990 census
countdoesnotneedtobe revised.


11. We present
             herea copyofTable5 fromthatreport,
                                             whichpresents

                                                        dataon the

       rateby racial
retention                  group:

                   andethnic





      Caucasian                    71 %              76 %              83 %           81 %

      Hispanic                     56 %              63 %          70 %               62 %

      African American             55 %              68 %          70 %               59 %

      Asian and Pacific Islander   47 %              62 %          59 %               51 %

      Native American              71 %              -74 %         69 %               76 %

      Totals:                      66 %              72 %          81 %               76 %

      Source: NMDP Registry Statistics
      Analysis: OffIce of Inspector General (OIG).




12. Because we compared 1995 recruitment levels with population data from the 1990 U.S.
census,thetrueproportion of minority donors in each center’s service area may be
underestimated.     This should be considered         a conservative     estimate.

13. The NMDP has recently accredited a new recruitment                  group called SAMAR.   This
recruitment group targets Asian Indian donors.

14. U.S. General Accounting         Office, Bone Marrow Transplants: National Program Has
Greatly Increased Pool of Potential Donors, GAO/HRD-93-l 1,November 1992.




                                                      D-2
